PROOF OF SERVICE
I, Frances Chen, declare:
At the time of service, I was over 18 years of age and not a party to this action. I am
employed in the County of Alameda, State of California, over the age of 18 years and not a
party to the within case. My business address is 1221 Oak Street, Suite 450, Oakland, CA
94612-4296. My electronic service address is frances.chen@acgov.org.
On December 16, 2020, I served the foregoing document:
RESPONDENTS' REQUEST FOR EXTENSION OF TIME
I served the documents on the person(s) below, as follows:
Darren J. Kessler
Kessler Law Office
DarrenJKessler@gmail.com

Counsel for Petitioner

Ronald E. Enabnit
Matheny Sears
renabnit@mathenysears.com
Lizabeth N. de Vries
DeVries Law, P.C.
liza@devrieslawsf.com
The documents were served by the following means:
☒

ELECTRONIC SERVICE: I electronically served the above entitled documents to the
electronic service addresses listed above, pursuant to a prior agreement to accept
electronic service.

I declare under penalty of perjury under the laws of the State of California that the
foregoing is true and correct. Executed at Oakland, California on December 16, 2020.

____________________
Frances Chen

